        OIG
        OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment



Audit Report




         Improvements Are Needed for
         Information Technology Controls
         at the Las Vegas Finance Center


         Report No. 2003-P-00011


         May 29, 2003
Report Contributors:                            Edward Densmore
                                                Wen Song
                                                Corey Costango
                                                Cheryl Reid




 Abbreviations


 ARTS             Asbestos Receivable Tracking System

 EPA              U.S. Environmental Protection Agency

 LAN              Local Area Network
 LVFC             Las Vegas Finance Center

 NIST             National Institute of Standards and Technology

 OIG              Office of Inspector General
Purpose

The objective of this audit was to determine whether general information technology controls at the Las
Vegas Finance Center (LVFC) are adequate to safeguard the integrity of Agency resources and ensure
continuity of critical EPA operations.

Background
The LVFC, in Las Vegas, Nevada, is a field branch of the Financial Services Division of EPA’s Office
of the Chief Financial Officer. LVFC provides a full range of accounting and financial services to EPA
co-located activities, such as the Team Vegas Human Resources Office, National Exposure Research
Las Vegas Laboratory, and the Radiation and Indoor Environments National Laboratory; remote
activities, such as labs in Oklahoma, Oregon, and Colorado; and Criminal Investigations Division
offices in Boston, San Francisco, Philadelphia, Chicago, and New York. These services include
processing procurement orders, Government bills of lading, and travel-related documents. The LVFC
is also responsible for grant payments and financial closeout for all assistance agreements in both EPA
Headquarters and Region 7.

The LVFC Local Area Network (LAN) provides network support for the staff at LVFC and the
Office of Solid Waste and Emergency Response, and hosts the Las Vegas National Value-Added
Backbone Service accessible to all other EPA field office organizations in the Las Vegas area (i.e.,
Human Resources, Office of Radiation and Indoor Air, and the Office of Research and Development).
The LVFC LAN consists of 3 Novell servers running Novell NetWare 5.0, 32 client workstations
operating on a mix of DOS and Windows 95/98/2000/XP operating systems, 7 networked workgroup
printers, and a tape drive for performing backups.

The LVFC is also responsible for Asbestos Grant and Loan Program post-award loan activity. Related
to this program, the Asbestos Receivable Tracking System (ARTS) microcomputer database
application was developed to record and track repayments as well as manage EPA’s asbestos loans
and provide for reporting direct loans under the Credit Reform Act of 1990. The software contains
subsidiary ledger detail data that feeds into EPA’s Integrated Financial Management System accounts
receivable general ledger balances. ARTS tracks the disbursement of loans and collection of payments,
and also issues bills and reminder notices to loan recipients. In addition, ARTS provides detailed data
for internal and external reports regarding asbestos loans for the Office of Management and Budget,
Treasury, and Congress.

Scope and Methodology

The primary focus of this audit was security controls over the LVFC LAN and ARTS. Specifically, we
reviewed security program planning and management, access controls, segregation of duties, and
service continuity practices. We conducted our audit field work from December 2002 to
February 2003, at LVFC and at EPA Headquarters in Washington, DC.
                                                   1
To accomplish the audit objective, we used a variety of Federal and Agency regulatory documents,
including:

        •   Office of Management and Budget Circular A-130, Appendix III, Security of Federal
            Automated Information Resources.
        •   National Institute of Standards and Technology (NIST) Special Publication 800-12, An
            Introduction to Computer Security.
        •   EPA Directive 2195A1, Information Security Manual.
        •   EPA Directive 2195.1 A4, Agency Network Security Policy.

We conducted the audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We reviewed the LVFC LAN and ARTS security plans,
and the Continuity of Operations Plan. We interviewed personnel at LVFC and at EPA headquarters.
In addition, we performed tests on the logical security controls and observed physical security controls
at the LVFC.

Prior Audit Coverage

A prior EPA OIG report entitled Fiscal 1994 Financial Statement Audit of EPA’s Trust Funds,
Revolving Funds and Commercial Activity, No. E1SFL4-20-8001-5100192, dated February 28,
1995, identified several control weaknesses related to ARTS at LVFC. Specifically, the report noted
ARTS lacked: (1) adequate security over computer programs and loan data, (2) a virus protection
program, (3) standardized backup and recovery procedures, (4) an Integrated Financial Management
System interface, and (5) a problem/change control log. Recommendations included: developing
written policies and procedures describing ARTS backup, recovery, and contingency plans; maintaining
ARTS data and program backups in a secure off-site location; and implementing an electronic interface
between ARTS and the Integrated Financial Management System. In responding to the draft report,
the Chief Financial Officer agreed to take corrective action on all of the recommendations.

Results of Review

Improvements are needed to general information technology controls at LVFC to effectively ensure
continuation of services. Backup media (i.e., on- and off-site storage) were not properly secured,
system documentation was not being stored off-site, and network connection boxes were unlocked.
As a result, should a disruption of service occur, LVFC’s ability to start up operations in a timely
manner could be impeded. The weaknesses relating to off-site backup media and system
documentation occurred because management had not developed a comprehensive continuity of
support plan for the LVFC LAN. In addition, management did not perform a complete risk assessment
for the LVFC LAN that may have identified the weaknesses relating to on-site backup media and the
network connection boxes. A continuity of support plan establishes the necessary procedures for
managing and continuing operations following disasters or interruptions of service, while a risk
assessment assists management in identifying threats and vulnerabilities. To improve continuity of
                                                    2
operations capabilities, management also needs to follow generally accepted practices for securing
backup media and storing systems documentation. Details on conditions noted follow.

       Unsecured Backup Media

       LAN. LVFC did not properly secure the on- and off-site storage of its LAN backup tapes.
       Incremental backups of the LAN are performed daily and a full backup every Friday.
       Although the on-site LAN backup tapes were stored in the LVFC computer room, the current
       weekly backup tapes were located in an unlocked tape drive and thus were not adequately
       secured. In addition, another set of backup tapes was stored on open racks within the
       computer room. Although LVFC officials did not think further controls were needed because
       the computer room utilizes a card reader system for access, anyone entering the computer
       room could compromise the on-site backup tapes. For example, a number of contractors
       outside of the finance group have access to the computer room. These contractors need access
       to shared telecommunications equipment installed in the room, but they do not need access to
       the backup tapes. Regarding off-site storage, the LAN backup tapes are removed to an off-
       site storage location every other Friday. However, the off-site storage location for these tapes
       was an EPA employee’s personal residence. Management cannot ensure the physical security
       of backup tapes at a personal residence, and may not be able to retrieve such backup tapes
       during an emergency situation if the employee is on travel or otherwise not available.

       ARTS. Backup tapes for ARTS also were not properly secured on- and off-site. ARTS is
       backed up weekly, and the backup tapes are stored on-site in an unlocked cabinet located in
       shared LVFC office space accessible to all personnel in that space. Only authorized personnel
       (e.g., the system administrator and employee responsible for performing backups) should have
       access to the backup media. In addition, although the tapes are also sent monthly to the
       Financial Systems Branch at EPA Headquarters, the Branch leaves the tapes unsecured on top
       of a file cabinet inside shared office space. Furthermore, since ARTS files are backed up to the
       LVFC LAN, they are exposed to the weaknesses previously discussed for the LAN backup
       tapes.

       ARTS System Documentation Not Stored Off-Site

       Management did not store ARTS system documentation off-site. A copy of the documentation
       stored on-site includes procedures to back up, restore, and recover the application. If LVFC
       operations are disrupted and on-site system documentation cannot be obtained, the ARTS
       application manager stated she would be able to restore ARTS without the documentation.
       Nonetheless, she agreed maintaining another copy of system documentation off-site would be
       helpful, since she did not think anyone else would be able to restore ARTS application without
       the system documentation. Industry best practices dictate that off-site storage of
       documentation should be established to support recovery and business continuity plans.




                                                   3
        Unlocked Network Connection Boxes

        The network connection boxes between the LVFC LAN and the building housing the Office of
        Solid Waste and Emergency Response’s connectivity to the LVFC LAN were not locked.
        That office uses the LVFC server to connect to the EPA network. The unlocked network
        connection boxes were located on the exterior of the two buildings and were opened by
        releasing two latches, exposing the fiber optic cables. According to NIST Special Publication
        800-12, physical access controls should address not only the area containing system hardware
        but locations of wiring used to connect elements of the system and data lines. Within a few
        hours of the unlocked network connection boxes being brought to the attention of the LVFC
        management, padlocks were placed on the boxes.

As a result of the conditions noted, LVFC’s ability to start up operations in a timely manner may be
impeded, should a disruption of service occur. Consequently, LVFC may not be able to effectively
continue its operations or have the most current data available, if a disaster occurs. Specifically,
management may not be able to timely obtain the backup tapes and system documentation needed to
restart necessary financial management services for its customers.

The weaknesses relating to off-site backup media and system documentation occurred because
management had not developed a comprehensive continuity of support plan for the LVFC LAN. In
addition, management did not perform a complete risk assessment for the LVFC LAN that may have
identified the weaknesses relating to on-site backup media and the network connection boxes.
Management needs to expand the LVFC continuity of operations plan to ensure LAN operations can
continue smoothly. The current plan assigns responsibilities for plan activation and identifies some
essential functions, positions, and equipment needed for relocating to an alternate site. However, it
does not provide detailed procedures for continuing LAN operations, such as business priorities and
timing for restoration and recovery. EPA Directive 2195A1 includes steps to develop continuity of
support plans. These steps include (1) defining and describing what needs to be done for shutting down
the hardware during and immediately after an emergency; (2) identifying business priorities, the order of
importance, and timing for restoration and recovery of system processing capabilities; and (3)
determining how hardware supplies and other needed items will be obtained.

Office of Management and Budget Circular A-130, Appendix III, requires Federal agencies to
consider risk when deciding what security controls to implement. It states a risk-based approach is
required to determine adequate security, and encourages agencies to consider major risk factors, such
as threats, vulnerabilities, and the effectiveness of current or proposed safeguards. Also, EPA Directive
2195.1 A4 states risk assessments must be conducted and updated for general support systems (which
include LANs) and/or major applications at least every 3 years, or when a substantive configuration
change occurs.

LVFC management currently relies on “BindView,” a system management product, to perform risk
assessments for its LAN. BindView can be used to monitor and report on password activity, intruder


                                                    4
detection, and the presence of unauthorized files in the login directory. Although BindView is a very
useful management tool, it does not address the whole LAN environment and does not satisfy risk
assessment requirements. LVFC managers also utilized the agency’s self-assessment tool to gather
data on the LAN in support of NIST Special Publication 800-26, Security Self-Assessment Guide for
Information Technology Systems. Self assessments provide a method for managers to determine the
current status of their information security programs. This NIST Special Publication states a risk
assessment should be conducted in conjunction with or prior to the self-assessment. It further states a
self-assessment does not eliminate the need for a risk assessment. According to NIST Special
Publication 800-12, a risk assessment includes collecting and analyzing data (e.g., asset valuation,
consequence analysis, threat identification, safeguard analysis, and vulnerability analysis). If
management had performed a risk assessment that included threat identification, it may have identified
the weaknesses relating to unsecured backup media and the unlocked network connection boxes.

To improve continuity of operations capabilities, management also needs to follow generally accepted
practices for securing backup media and storing systems documentation. As noted, LVFC did not
have adequate LAN and ARTS backup procedures. Generally accepted practices dictate that
management design media controls to prevent the loss of confidentiality, integrity, or availability of
information when stored outside the system. EPA’s LAN Operating Procedures also endorse such
practices.

Recommendations

We recommend that the Branch Chief, LVFC:

1.    Conduct a complete risk assessment for the LVFC LAN.

2.    Develop, implement, and test a comprehensive continuity of support plan for the LVFC LAN.

3.    Update and implement the LAN and ARTS backup procedures to include an adequate off-site
      storage location and adequate physical controls for both on- and off-site backup media and
      system documentation and update LAN and ARTS security plans accordingly.

Agency Response and OIG Evaluation

In responding to the draft report, the LVFC Branch Chief concurred with our recommendations (see
Appendix A). In the response, some language changes were suggested and, in most cases, we
modified the report language accordingly.

The response indicated LVFC officials are working with their Information Security Officer to identify an
individual and/or organization who will conduct a complete risk assessment during fiscal 2004. They
have also agreed to develop, implement, and test a comprehensive continuity of support plan for the
LVFC LAN. Furthermore, LVFC management has installed a locked, fireproof cabinet in the LVFC


                                                   5
computer room for on-site storage of the LAN and ARTS backups. A second locked, fireproof
cabinet has been installed in a secured room off-site, in order to provide storage for the LAN and
ARTS backups, as well as for copies of the ARTS system documentation. The door to the backup
tape drive is also now under lock and key.

In our view, the corrective actions described in response to Recommendations 1 and 2 are appropriate
and should, when fully implemented, adequately address the recommendations. However, LVFC
management did not fully address Recommendation 3 by indicating concurrence or non-concurrence
with updating the LAN and ARTS security plans. If the LAN and ARTS security plans are
subsequently updated to reflect the corrective action described in LVFC’s response for
Recommendation 3, this recommendation will also be adequately addressed.




                                                  6
                                    Appendix A

Agency’s Response to Draft Report




                7
8
                                                                                     Appendix B

                                 Report Distribution


Comptroller (2731 A)
Deputy Chief Financial Officer (2710A)
Director, Financial Services Division, Office of Chief Financial Officer (2734R)
Director, Financial Management Division, Office of Chief Financial Officer (2733R)
Audit Liaison, Office of Chief Financial Officer (2710A)
Inspector General (2410)




                                                  9
